Zi
\

OCKLE

2311 Douglas Street CA : E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B aisds contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 20-1532

DIANA GARVEY,
Petitioner,
v.
DENIS MCDONOUGH,
SECRETARY OF VETERANS AFFAIRS,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY BRIEF FOR
PETITIONER in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 2999 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 14th day of September, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

My Comm. Exp. September 5, 2023,

 

orn Kone 0. tooo Ondaae-bt Chel

Affiant 41419

 

Notary Public
